<html>
<title> - EXAMINING THE CHALLENGES FACING NATIVE AMERICAN SCHOOLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                 EXAMINING THE CHALLENGES FACING NATIVE
                            AMERICAN SCHOOLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 22, 2015

                               __________


                           Serial No. 114-10

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-209 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                      
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Marcia L. Fudge, Ohio,
Glenn Thompson, Pennsylvania           Ranking Minority Member
Dave Brat, Virginia                  Susan A. Davis, California
Buddy Carter, Georgia                Raul M. Grijalva, Arizona
Michael D. Bishop, Michigan          Gregorio Kilili Camacho Sablan,
Glenn Grothman, Wisconsin              Northern Mariana Islands
Steve Russell, Oklahoma              Suzanne Bonamici, Oregon
Carlos Curbelo, Florida              Mark Takano, California
                                     Katherine M. Clark, Massachusetts
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 22, 2015...................................     1

Statement of Members:
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3
    Fudge, Hon. Marcia, L., Ranking Member, Subcommittee On Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Burcum, Ms. Jill, Editorial Writer Minneapolis Star Tribune, 
      Minneapolis, MN............................................     9
        Prepared statement of....................................    12
    Cladoosby, Mr. Brian, President, National Congress of 
      American Indians, Embassy of Tribal Nations, Washington, DC    16
        Prepared statement of....................................    19
    Nose, Mr. Roman, Executive Director, Tribal Education 
      Departments National Assembly, Boulder, CO,................    25
        Prepared statement of....................................    27
    Emrey-Arras, Ms. Melissa, Director, Education, Workforce and 
      Income Security Issues, U.S. Government Accountability 
      Office, Boston, MA.........................................    31
        Prepared statement of....................................    33

Additional Submissions:
    Ms. Emrey-Arras:.............................................
        Statement Visuals........................................    82
    Ms. Fudge: prepared statement of Hon. Rick Nolan, a 
      Representative in Congress from the State of Minnesota.....    87
    Mr. Nose:....................................................
        Prepared statement of....................................    90
 
                    EXAMINING THE CHALLENGES FACING
                        NATIVE AMERICAN SCHOOLS

                              ----------                              


                       Wednesday, April 22, 2015

                       House of Representatives,

              Subcommittee on Early Childhood, Elementary,

                        and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Thompson, Brat, Carter, 
Bishop, Grothman, Russell, Fudge, Davis, Sablan, and Takano.
    Also present: Representatives Kline, Nolan, and Robert C 
``Bobby'' Scott.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Kathlyn 
Ehl, Legislative Assistant; Matthew Frame, Staff Assistant; Amy 
Raaf Jones, Director of Education and Human Resources Policy; 
Nancy Locke, Chief Clerk; Krisann Pearce, General Counsel; 
Lauren Reddington, Deputy Press Secretary; Mandy Schaumburg, 
Education Deputy Director and Senior Counsel; Juliane Sullivan, 
Staff Director; Leslie Tatum, Professional Staff Member; Brad 
Thomas, Senior Education Policy Advisor; Tylease Alli, Minority 
Clerk/Intern and Fellow Coordinator; Barbera Austin, Minority 
Staff Assistant; Kelly Broughan, Minority Education Policy 
Advisor; Jacque Chevalier, Minority Senior Education Policy 
Advisor; Denise Forte, Minority Staff Director; Ashlyn 
Holeyfield, Minority Education Policy Fellow; Tina Hone, 
Minority Education Policy Director and Associate General 
Counsel; Brian Kennedy, Minority General Counsel; and Richard 
Miller, Minority Senior Labor Policy Advisor.
    Chairman Rokita. Well, good morning, and welcome to today's 
subcommittee hearing.
    I would like to thank our witnesses for joining us to 
examine the very serious challenges facing Native American 
schools.
    Nearly a century ago the Federal Government made a promise 
to deliver to Native American children a quality education that 
just doesn't teach math and science, but preserves their 
customs and culture. Under the Department of Interior's Bureau 
of Indian Education, the Federal Government is expected to 
support the education of more than 40,000 students through 
approximately 185 elementary and secondary schools located on 
or near Indian reservations.
    Unfortunately, the Federal Government is failing to keep 
its promise to these vulnerable children.
    As reports from congressional committees, government 
watchdogs, investigative journalists, and academics have 
detailed, the state of BIE education is abysmal. Too many 
schools lack adequate infrastructure and educational resources, 
compromising the health, safety, and future postsecondary and 
professional opportunities of the children they are supposed to 
be serving. And it has been this way for far too long.
    A 1969 Senate report from the Committee on Labor and Public 
Welfare describes the Federal Government's failure to provide 
an effective education as a ``national tragedy and a national 
disgrace,'' and that has ``condemned the American Indian to a 
life of poverty and despair.''
    Despite countless calls for change, all we have seen is 
decades of inaction. As one of today's witnesses chronicles in 
an acclaimed Minneapolis Star Tribune series on the failing BIE 
system, ``Federal neglect continues to handicap learning at BIE 
schools nationwide. Kids shivering in thin-walled classrooms or 
studying under leaky roofs year after year aren't getting the 
education they need or deserve.''
    A report by the nonpartisan Government Accountability 
Office further details these concerns. Entitled the ``Bureau of 
Indian Education Needs to Improve Oversight of School 
Spending,'' that report reveals a chronic failure to fix and 
replace decrepit and antiquated schools. The GAO cites a 
bungling bureaucracy that includes a lack of information to 
effectively monitor and fix the problems plaguing school 
facilities, as well as confusion and poor communication about 
who is actually responsible for addressing the various needs of 
these schools.
    The details of these reports are sobering. However, words 
on paper will never fully convey the troubling state of Native 
American education. That is why members of this committee have 
visited these schools to learn firsthand about the challenges 
they face.
    This year, for my part, I visited several BIE schools, 
including the Theodore Roosevelt Indian School and John F. 
Kennedy Indian School, both in Arizona, and this was with BIE 
Director Monty Roessel; as well as the Bug-O-Nay-Ge-Shig school 
in Minnesota with Chairman John Kline.
    The conditions at these schools are deplorable. Some 
classrooms lack desks, books, computers, pencils, paper, and 
while others lack proper flooring, roofing, and ventilation.
    Some schools are missing a working water heater, for 
example. Others are missing front doors and are rodent-
infested. And for many students, attending these unsafe and 
unhealthy schools is their only option.
    Despite the many obstacles that stand in the way of these 
students and educators, their resiliency and determination to 
create better lives for themselves is nothing short of 
inspiring. They understand the importance of an education and 
the opportunities it will afford them.
    I have also met dedicated teachers and school 
administrators in these places who are working hard to overcome 
these challenging conditions and help improve the lives of 
their students with quality educational opportunities. They are 
to be commended.
    It is paramount that we uphold our promise to provide 
Native American children an excellent education that preserves 
their tribal heritage. Though the current system poses 
significant challenges, turning a blind eye is not the answer. 
The Federal Government must live up to its responsibility.
    We look forward to learning from our witnesses about the 
Bureau of Indian Education and the schools under BIE's 
jurisdiction. I am confident that today's hearing will help 
advance real solutions that ensure Native American children 
have access to safe and healthy schools that support quality 
teaching and learning.
    So with that, I will now recognize the ranking member, 
Congresswoman Fudge, for her opening remarks.
    Good morning.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our witnesses for joining us to examine the very serious 
challenges facing Native American schools.
    Nearly a century ago, the federal government made a promise to 
deliver to Native American children a quality education that preserves 
their customs and culture. Under the Department of Interior's Bureau of 
Indian Education, the federal government is expected to support the 
education of more than 40,000 students through approximately 185 
elementary and secondary schools located on or near Indian 
reservations.
    Unfortunately, the federal government is failing to keep its 
promise to these vulnerable children.
    As reports from congressional committees, government watchdogs, 
investigative journalists, and academics have detailed, the state of 
BIE education is abysmal. Too many schools lack adequate infrastructure 
and educational resources, compromising the health, safety, and future 
postsecondary and professional opportunities of the children they are 
intended to serve. And it has been this way for far too long.
    A 1969 Senate report from the Committee on Labor and Public Welfare 
describes the federal government's failure to provide an effective 
education as a ``national tragedy and a national disgrace'' that has 
``condemned the [American Indian] to a life of poverty and despair.''
    Despite countless calls for change, all we have seen is decades of 
inaction. As one of today's witnesses chronicles in an acclaimed 
Minneapolis Star Tribune series on the failing BIE system, ``federal 
neglect [continues to handicap] learning at BIE schools nationwide . . 
. Kids shivering in thin-walled classrooms or studying under leaky 
roofs year after year aren't getting the education they need or 
deserve.''
    A report by the nonpartisan Government Accountability Office 
further details these concerns. Entitled the ``Bureau of Indian 
Education Needs to Improve Oversight of School Spending,'' the report 
reveals a chronic failure to fix and replace decrepit and antiquated 
schools. The GAO cites a bungling bureaucracy that includes a lack of 
information to effectively monitor and fix the problems plaguing school 
facilities, as well as confusion and poor communication about who is 
actually responsible for addressing the various needs of these schools.
    The details of these reports are sobering. However, words on paper 
will never fully convey the troubling state of Native American 
education. That is why members of the Education and the Workforce 
Committee have visited these schools to learn firsthand about the 
challenges they face.
    This year, I have visited several BIE schools, including the 
Theodore Roosevelt Indian School and John F. Kennedy Indian School in 
Arizona with BIE director Dr. Monty Roessel, as well as the Bug-O-Nay-
Ge-Shig (BUG-OH-NAY-GHEE-SHIG) School in Minnesota with Chairman John 
Kline.
    The conditions at these schools are deplorable. Some classrooms 
lack desks, books, computers, pencils, and paper, while others lack 
proper flooring, roofing, and ventilation. Some schools are missing a 
working water heater. Others are missing front doors and are rodent-
infested. And for many students, attending these unsafe and unhealthy 
schools is their only option.
    Despite the many obstacles that stand in the way of these students 
and educators, their resiliency and determination to create better 
lives for themselves is nothing short of inspiring. They understand the 
importance of an education and the opportunities it will afford them. 
I've also met dedicated teachers and school administrators who are 
working hard to overcome these challenging conditions and help improve 
the lives of their students with quality educational opportunities.
    It is paramount that we uphold our promise to provide Native 
American children an excellent education that preserves their tribal 
heritage. Though the current system poses significant challenges, 
turning a blind eye is not the answer. The federal government must live 
up to its responsibility.
    We look forward to learning from our witnesses about the Bureau of 
Indian Education and the schools under BIE's jurisdiction. I am 
confident today's hearing will help advance real solutions that ensure 
Native American children have access to safe and healthy schools that 
support quality teaching and learning.
    With that, I will now recognize the ranking member, Congresswoman 
Fudge, for her opening remarks.
                                 ______
                                 
    Ms. Fudge. Good morning. Thank you very much, Mr. Chairman.
    And thank you all for being here today.
    School facilities are a problem in poor communities across 
this country, but especially so in Native American schools.
    It has been more than 7 years since this committee held a 
hearing on American Indian education. That is far too long. 
American Indian students need and deserve better.
    American Indian students face daunting educational 
challenges, more than any population in this country. The 
condition of their facilities is only one of the many 
challenges they face.
    We also need to turn our attention to academic issues, 
including but not limited to graduation rates. In 2014 students 
attending Bureau of Indian Education schools graduated at a 
rate of just 53 percent, while American Indian and Alaska 
Native students enrolled in non-BIE schools had a graduation 
rate of 68 percent, still well below the national average of 81 
percent.
    It is clear the Federal Government has failed to meet its 
obligation to deliver quality education services that meet all 
students' needs in safe and healthy facilities.
    In BIE, tribally controlled, and public schools much needs 
to be done. But today we will examine the condition of Bureau 
of Indian Education facilities.
    The poor condition of school buildings affects the health 
and safety of students and fails to provide an environment 
conducive to learning. In a February 2015 report, the GAO 
outlined some of the challenges facing the Department of 
Interior and the Bureau of Indian Education that affect the 
repair and maintenance of BIE schools.
    GAO is here today and I look forward to hearing more about 
your findings, especially what steps must be taken to address 
and prevent these issues going forward.
    There must be collaboration among all entities with 
responsibility for the education of American Indian students in 
order for them to achieve academic success. While congressional 
oversight is required to ensure the Department of Interior and 
the Department of Education fulfill their obligations to 
American Indian students, we know the long history of broken 
federal promises to our tribes and their children, which 
requires extra vigilance.
    It is important for those responsible to know this is a 
priority and we are watching. The need is too urgent for us to 
do nothing.
    To the witnesses, I thank you for being here today and I 
look forward to hearing your testimony.
    Mr. Chairman, I yield back.
    [The statement of Ms. Fudge follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    Chairman Rokita. Thank the ranking member.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I will now turn to the introduction of our distinguished 
witnesses.
    And first, I recognize the chairman of the full committee, 
Mr. Kline, to introduce our first witness.
    Mr. Kline. Thank you, Mr. Chairman.
    I am extremely pleased to have the honor today to introduce 
our first witness, who is Ms. Jill Burcum. I was asked, when we 
were talking about setting up this hearing and when Mr. Rokita 
and I made the trip up to northern Minnesota to look at the 
deplorable conditions in one of our schools, well, why was I 
doing that; and I said, ``Well, because of the work that Ms. 
Burcum had done in the Star Tribune of bringing this issue to 
our attention.''
    She is an editorial writer with the Star Tribune in 
Minneapolis. She joined the editorial board in March of 2008 
after working in the Tribune's newsroom as an editor and 
reporter for 10 years.
    She authored the Star Tribune's four-part series on BIE 
schools entitled ``Separate and Unequal.'' And just this week 
Ms. Burcum was named a 2015 Pulitzer Prize finalist for 
editorial writing for this series. And so we are very, very 
proud of her.
    We are happy that you are here. We thank you for being 
here.
    And I yield back.
    Chairman Rokita. I thank the gentleman.
    And let me add my welcome, as well.
    I will resume introducing our witnesses.
    President Brian Cladoosby is the president of the National 
Congress of American Indians here in Washington, D.C. and is 
the chairman of the Swinomish Indian Senate. President 
Cladoosby also serves as the president of the Association of 
Washington Tribes and is a member of the executive board of the 
Washington Gaming Association. Previously he served as 
president of the Affiliated Tribes of Northwest Indians.
    Welcome, sir.
    Mr. Quinton Roman Nose, who I have met before, is the 
executive director of the Tribal Education Departments National 
Assembly in Boulder, Colorado. Mr. Roman Nose has dedicated 
most of his career in the Indian education field to promote and 
develop educational initiatives and opportunities to improve 
the education levels of Native American students and tribal 
members.
    Welcome, sir.
    Ms. Melissa Emrey-Arras is the director of education, 
workforce, and income security issues with the U.S. Government 
Accountability Office in Boston, Massachusetts. Ms. Emrey-Arras 
oversees the agency's K-12 and higher education work, including 
leading national studies on BIE schools.
    Particularly welcome today. Thank you for your hard work.
    I will now ask our witnesses to stand, if you would, and 
raise your right hand.
    [Witnesses sworn.]
    Let the record reflect that the witnesses answered in the 
affirmative.
    And you may be seated. Thank you.
    And before I recognize you to provide your testimony, let 
me briefly explain the lighting system. You will have 5 minutes 
to present your testimony. When you begin, the light in front 
of you, of course, will be green; with 1 minute left it will 
turn yellow; and when it becomes red that means stop.
    As simple as that sounds and is, sometimes it is hard for 
us up here to abide by it, so I say it as much for us as I say 
for you. But with that, I don't expect there will be any 
issues.
    And now I would like to recognize the witnesses for 5 
minutes of questioning starting with Ms. Burcum.
    Go ahead, please.

  STATEMENT OF MS. JILL BURCUM, EDITORIAL WRITER, MINNEAPOLIS 
              STAR TRIBUNE, MINNEAPOLIS, MINNESOTA

    Ms. Burcum. Chairman Rokita, Chairman Kline, Ranking Member 
Fudge, and members of the subcommittee, thank you for your 
sincere interest in American Indian education--
    Chairman Rokita. Ms. Burcum, put the microphone right to 
your mouth. Thank you.
    Ms. Burcum. This better?
    Chairman Rokita. Just turn it. There you go. There.
    Ms. Burcum. All right.
    So thank you for your sincere interest in what is a 
national crisis: the shameful conditions of school buildings in 
the federal Bureau of Indian Education system.
    My name is Jill Burcum. I am an editorial writer with the 
Star Tribune newspaper based in Minneapolis, Minnesota. Our 
Upper Midwest coverage region is home to many large tribal 
nations.
    I went on the road in 2014 with photographer David Joles to 
document safety and structural failures of the facilities in 
which some of our nation's most disadvantaged learners attend 
class. The results were published in a series of editorials at 
the end of the year called ``Separate and Unequal.'' The 
editorials drew an outraged response from across the nation as 
we revealed the shameful conditions of these facilities.
    Many readers felt the same way I did. As a mom, I thought 
many times I would not be comfortable sending my children to 
school in these buildings. And I believe that committee members 
would feel similarly about sending their children, 
grandchildren, nieces, or nephews to schools with roofs that 
leak, have rotten subflooring, dangerously inadequate 
electrical systems, sewers that back up, and have classrooms so 
cold that kids have to wear mittens, coats, and hats in class.
    Unfortunately, parents in the BIE system don't have a 
choice on where their kids go to school, and this is why action 
is required.
    When we first began digging into the issue we focused on 
the plight of the Bug-O-Nay-Ge-Shig High School on the Leech 
Lake Indian Reservation in northern Minnesota. Conditions were 
far worse that we had feared.
    This is a school housed in something Midwesterners call a 
pole barn. These are metal sheds widely used on farms and by 
businesses, but not for schools.
    The Bug school, named after Chief Hole in the Day, is not 
even in a nice pole barn. It is more than 30 years old. The 
metal walls don't keep out the extreme winters. The foundation 
and roof leak.
    Electrical cables and pipes line the walls, and teachers 
can't even turn on all the electrical equipment at the same 
time. The science classroom lacks safety equipment needed for 
hands-on learning and experiments.
    The heating system has been repaired more times than anyone 
can remember, and one of the days that I visited it failed 
again. The repairmen just shook their heads when I asked them 
how long they could keep resuscitating it.
    It quickly became clear that the Bug school was a symptom 
of a broken BIE system. There are 183 schools with about 49,000 
students. Sixty-four of these schools are in poor condition, 
and many of them have been in this condition for a decade or 
more.
    Here is what that inaction means in the real world: On the 
Pine Ridge Reservation in South Dakota, I stood on a rotten 
wooden floor in one of the main hallways at Crazy Horse High 
School and I felt like the floor was going to give way beneath 
me. The Wounded Knee Elementary School at the western edge of 
the Pine Ridge Reservation should be a safe, secure place that 
offers hope to the students that it serves. Instead, this badly 
aged and under-equipped building mirrors the conditions in a 
nearby drug- and crime-ridden neighborhood that local residents 
refer to as a prairie ghetto.
    In Arizona, a school administrator became emotional when I 
called. One of the two remote schools she oversees had been 
slated for replacement for over a decade. She had been told by 
BIE officials that nothing could be done.
    Her reaction when a newspaper from Minnesota called was, 
``Thank God.'' She was simply glad that someone cared and 
someone was trying to help.
    You would think conditions like this inspire urgency at the 
federal agencies that oversee these schools. They haven't. 
Replacement school construction has shrunk dramatically over 
the past decade. Incredibly, it was zeroed out in the Obama 
administration's 2013 and 2014 budget requests.
    My interviews and exchanges with Interior Secretary Sally 
Jewell and BIE Director Charles Roessel did not inspire 
confidence. I believe they both personally care deeply about 
American Indian students, but there is a longstanding defeatism 
within Interior about improving conditions, and there is an 
entrenched, spread-out bureaucracy too often focused on red 
tape for red tape's sake and not on progress.
    One story I was told by the American Horse School in South 
Dakota is that they spent days working on a grant application 
only to be told multiple times they had submitted it on the 
wrong-colored paper. What a waste of time.
    In the meantime, no one is doing anything at this agency 
about a school replacement list that was over a decade old and 
still not complete. Where are these agencies--where is this 
agency's priorities and where in the urgency--where is the 
urgency?
    The burden for Secretary Jewell and Director Roessel is 
changing that culture, and I have yet to hear a game plan for 
how they intend to do that. And I hope that we pursue this.
    Thank you for your consideration and your time.
    [The statement of Ms. Burcum follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    
    Chairman Rokita. I thank the witness.
    President Cladoosby, you are recognized for 5 minutes.

STATEMENT OF MR. BRIAN CLADOOSBY, PRESIDENT, NATIONAL CONGRESS 
  OF AMERICAN INDIANS, EMBASSY OF TRIBAL NATIONS, WASHINGTON, 
                              D.C.

    Mr. Cladoosby. Good afternoon, Chairman Rokita, Ranking 
Member Fudge, and members of the committee. My name is Brian 
Cladoosby. I am the chairman of the Swinomish Tribe located in 
Washington State, and I am appearing today as president of the 
National Congress of American Indians.
    Thank you for inviting me to testify today on this very 
important topic.
    One of the first things I ask members of Congress and the 
administration when I meet them is, ``Are you my trustee?'' In 
my State of Indian Nations address over the past 2 years I have 
focused on ensuring that the trust relationship between the 
Federal Government and tribes is upheld and brought into the 
21st century.
    Nowhere is that more important than with our youth, because 
when we talk about our youth not only is the Federal Government 
a trustee, but so am I. As president of NCAI, chairman of the 
Swinomish Tribe, a father, and a grandfather, there is no more 
solemn obligation as a leader than to safeguard our children.
    The future and very existence of our tribes depends on the 
education, health, and well-being of the next generations. So 
today, when we talk about Indian education and the Bureau of 
Indian Education specifically, we need to think about how we 
can modernize and elevate and antiquated system to meet the 
needs of 21st century Indian students.
    Historically, inconsistent federal policies have undermined 
the success of Native students. You only need to look at the 
current graduation rate at BIE schools of 53 percent to know 
that change is needed.
    In fact, when we look at all the challenges our Native 
students face, all the baggage they bring, the historic trauma, 
it is commendable that five out of 10 of our students succeed 
in conditions that would seem insurmountable to many others.
    The challenges at BIE schools are well documented by 
congressional hearings, by GAO, OIG reports, and by the 
administration itself. In Senate testimony, Interior Secretary 
Jewell, who is ultimately responsible for BIE schools, stated, 
``Indian education is an embarrassment.''
    Many students attend schools that were built in the 1930s 
and 1940s, with 34 percent of the schools in poor condition and 
20 percent over 40 years old. It is difficult to attract 
teachers to the rural areas where many BIE schools are located, 
and if you do, there is often inadequate housing.
    Management at headquarters has been inconsistent, with 33 
BIE directors in the past 36 years. Tribes have repeatedly 
pointed to overly burdensome administrative requirements, lack 
of funding, and lack of flexibility to include language and 
culture in the curriculum as persistent obstacles.
    To move forward we need sustained, consistent growth, along 
with an acknowledgement that tribes are best suited to 
determine and meet the needs of their students.
    Since its beginning in the late 1800s, the BIE system never 
allowed tribes to truly control the education of their 
students. It wasn't until the Indian Self-Determination and 
Education Assistance Act of 1975 that tribes had the ability to 
take over the operation of their schools. The last 40 years 
have shown that tribes have the capacity to run their own 
schools, but more must be done.
    With 184 BIE schools located on 63 reservations in 23 
states, this reform effort will not succeed if it is not 
modified to the individual needs of the schools. Each school is 
subject to the federal requirements of the BIE as well as the 
state they reside in, which leaves little flexibility, even for 
those schools that are tribally controlled.
    So a one-size-fits-all approach will not work. Tribes want 
the ability to have more control over their curriculum so that 
language and culture can again be the cornerstone of education 
for Indian students.
    It will be important for the BIE to meet the tribes where 
they are and take into account their capacity and their 
cultural needs, and to provide the tools tribes need to support 
their students, their teachers, and their communities. In other 
words, true local control will take a true partnership.
    But it can be done. At the White House Tribes Nation 
Conference last December, a tribal leader asked BIE Director 
Monty Roessel for advice on transforming to a tribally 
controlled school. Monty's response surprised many in the room 
when he said, ``My advice is to start fresh.''
    Too many tribal schools end up looking just like the BIE 
model. Monty advised that tribal leader to build his ideal 
curriculum based on the traditions, culture, and unique needs 
of the students, and if he did that, his school would be a 
success. If that is truly the approach that the BIE and the 
committee takes in seeking solutions to the issues facing our 
students, then we can't help but be successful.
    At Swinomish we have a Tribal Education Department with a 
mission of supporting a lifelong student education. We have 
made it a point to work respectfully and collaboratively with 
the local schools, parents and guardians, students, and other 
tribal departments.
    The tribe has been fortunate enough to hire 12 
paraprofessionals to support and advocate for our Native 
students with the school district, and they are able to track 
each student's grades, attendance, and are available for 
specialized tutoring should the need arise. We have an 
attendance officer who supports students and families to ensure 
student attendance and will offer rides should students miss a 
bus or school bus.
    These investments in our Swinomish students have led to a 
graduation rate of Swinomish students of 100 percent last year, 
up from 50 percent in 2010.
    And finally, I would like to invite you to come out and 
visit our youth.
    Chairman Rokita, I know that you have recently visited BIE 
and tribal schools in Arizona and I commend you for that. And 
clearly that has informed your agenda here today to make sure 
all of our Native students are provided with the best 
educational opportunities possible.
    And to all other committee members, I invite you to meet 
our students, see our schools, and help us build a brighter 
future for our students and our tribes.
    Thank you very much.
    [The statement of Mr. Cladoosby follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Chairman Rokita. I thank the gentleman.
    Mr. Roman Nose, you are recognized for 5 minutes.

STATEMENT OF MR. QUINTON ROMAN NOSE, EXECUTIVE DIRECTOR, TRIBAL 
  EDUCATION DEPARTMENTS NATIONAL ASSEMBLY, BOULDER, COLORADO 
                       [DEMOCRAT WITNESS]

    Mr. Roman Nose. [Speaking native language.]
    Good morning.
    Chairman Rokita and Ranking Member Fudge, I am Quinton 
Roman Nose. I am Cheyenne from Oklahoma. I am also the 
executive director of the Tribal Education Departments National 
Assembly, a nonprofit organization for the education 
departments of American Indian and Alaskan Natives.
    I come here in a spirit of my great grandfather. He came in 
the late 1800s with Captain Pratt seeking funding for the very 
first boarding school, Carlisle Indian School. Came here 
seeking a better life for our Indian students through 
education.
    I appreciate the opportunity to speak to you today, and I 
thank Representative Rokita for setting this important hearing. 
Over 90 percent of our American Indian students are education 
in SEAs and public schools. The Bureau of Indian Education 
still oversees 185 schools, serving about 41,000 students.
    Overall, the federal education policy is failing Native 
American students. Native American students drop out of high 
school at a higher rate, score lower on achievement tests than 
any other group. The national dropout rate for Native American 
students is double than that of their peers.
    Likewise, the Office of Civil Rights report Data Collection 
Snapshot recognized that Native American elementary and 
secondary students in public schools are disproportionately 
suspended and expelled. OCR also found that Native American 
kindergarten students are held back at twice the rate of their 
Anglo counterpart, and 9 percent of our Native American ninth-
graders repeat the ninth grade.
    We have many sources of data reflecting underachievement in 
Native American students. I would like to point out that even 
though a report released by the Department of Education on 
March 16th of this year indicates that graduation rates for 
American Indian students have increased in recent years, 
however, Native American students continue to have the lowest 
graduation rates of all ethnic and racial groups.
    At the same time, tribal governments involved in the 
education of Native American students have been severely 
restricted until recently. Since 1988, Congress has authorized 
funding specifically to build tribal capacity to directly serve 
Native American students. Funds were recently appropriated for 
the first time, but these tribal education agencies, TEAs, need 
continued funding in order to fulfill critical needs of Native 
American students.
    TEAs are in a unique position to halt and reverse the 
negative outcomes for Native American students. TEAs have 
already proven they are capable of improving Native American 
student outcomes.
    As an example, Chickasaw Nation, one of the STEP grantees, 
has a science, technology, and math program, among other 
education programs, that serves approximately 250 Chickasaw 
students. Ninety percent of senior students participating in 
that program enrolled in college. The work of the Nez Perce 
Tribe in Idaho--their TEA is another good example.
    The most recent research shows that the achievement in 
Native American students have found a connection between low 
achievement and low cultural relevance. The Nez Perce Tribe, 
another STEP grantee, has made a large inroad to providing 
teacher training on the integration of cultural pedagogy, 
tribal education standards, and Common Core standards.
    While TEAs can assist in curbing the challenges, the 
challenges are widespread. For instance, the FCC estimates that 
the percentage of Americans in rural tribal communities without 
access to fixed broadband--it is eight times higher than the 
national average.
    There was a rulemaking committee estimated that 61 of the 
183 BIE schools were in poor condition and that bringing them 
to fair condition would cost $1.3 billion. TEDNA supports 
efforts to build or repair school buildings for tribal schools 
and would encourage more funding and a smoother, streamlined 
process so that more buildings can be completed under the 
original plans.
    As the GAO reported in the series report, BIE needs better 
management and accountability, improved oversight of spending, 
and to greatly upgrade many facilities. TEDNA generally 
supports the current BIE reorganization plan, but wants to 
ensure that there is local and regional input from tribal 
leadership.
    The BIE reorganization plan will move toward allowing more 
tribes to have more control of their education system even 
though we recognize it will be a difficult process. We are 
aware of arguments from both sides, the pro and cons, of the 
reorganization plan. We support the efforts of those tribes and 
their TEAs who are willing to participate in this process.
    We appreciate the BIE Sovereignty in Education grant. We 
also applaud the House's initiative for appropriating TEA 
fundings on 25 U.S. Code Section 2020, a historic 
appropriation. The recent initiatives recognize the importance 
of TEAs.
    In closing, while there are serious challenges facing 
Native American students, there are promising TEAs and programs 
that are currently making advances. With the assistance of the 
House appropriating funds for TEAs, we are hoping to continue 
to make gains and provide TEAs with a greater role in the 
education of their students.
    Again, I thank you, Chairman Rokita, for recognizing the 
importance of Native education and the challenges we are facing 
in educating our students.
    Should you have any questions, I am happy to answer them. 
Also, we will be submitting written testimony within the 2-week 
period.
    Thank you.
    [The statement of Mr. Roman Nose follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Chairman Rokita. I thank the gentleman.
    Ms. Emrey-Arras, you are recognized for 5 minutes.

  STATEMENT OF MS. MELISSA EMREY-ARRAS, DIRECTOR, EDUCATION, 
     WORKFORCE AND INCOME SECURITY ISSUES, U.S. GOVERNMENT 
          ACCOUNTABILITY OFFICE, BOSTON, MASSACHUSETTS

    Ms. Emrey-Arras. Thank you.
    Chairman Rokita, Ranking Member Fudge, and members of the 
subcommittee, thank you for inviting me here today to discuss 
GAO's work regarding Indian Affairs' oversight of and support 
for Indian education.
    Over the past 10 years, Indian Affairs within the 
Department of Interior has undergone several reorganizations, 
resulting in multiple offices across different units being 
responsible for Indian education.
    Within Indian Affairs, the Bureau of Indian Education 
oversees 185 elementary and secondary schools that serve 
approximately 41,000 students on or near Indian reservations in 
23 states. These schools receive almost all of their funding 
from the Department of Interior and the Department of 
Education.
    Student performance at these schools has been consistently 
below that of Indian students at public schools, raising 
questions about whether students at these schools are, in fact, 
receiving a quality education.
    My remarks will cover findings from our prior work. 
Specifically, I will focus on three key management challenges 
at Indian Affairs: one, its administration of schools; two, the 
capacity of its staff to address school needs; and three, 
accountability for managing school construction and monitoring 
school spending.
    In terms of administration, we have found that 
organizational fragmentation and poor communication undermine 
administration of these schools. In addition to the Bureau of 
Indian Education, multiple offices have responsibility for 
educational and administrative functions at these schools.
    For example, Indian Affairs provided us with a chart on 
these offices, and I think you can see it on the side. And this 
is just a chart for just school facilities. And as you can see, 
it shows numerous offices across three organizational 
divisions.
    Fragmentation and poor communication among Indian Affairs 
offices has led to confusion among schools about whom to 
contact when they have problems, and it has also resulted in 
delays of key educational services and supplies like textbooks 
to students.
    In 2013, we recommended that Indian Affairs develop a 
strategic plan for the Bureau of Indian Education and a 
strategy for communicating with schools. Although Indian 
Affairs agreed with the recommendations, it has not yet fully 
implemented them.
    Limited staff capacity within Indian Affairs poses another 
challenge to addressing school needs. Indian Affairs data 
indicate that about 40 percent of its regional facility 
positions, such as architects and engineers, are vacant.
    We also found that staff do not always have the skills and 
training that they need to oversee school spending. We 
recommended that Indian Affairs revise its workforce plan so 
that employees are placed in the right offices and have the 
right skills to support schools. Although Indian Affairs again 
agreed with this recommendation, it has not implemented it.
    Inconsistent accountability also hampers management of 
school construction and monitoring of school spending. We have 
found that Indian Affairs did not consistently oversee some 
school construction projects.
    For example, at one school we visited Indian Affairs spent 
$3.5 million to replace multiple roofs in 2010. The new roofs 
have leaked since they were installed, causing mold and ceiling 
damage. And again, there is another picture. Indian Affairs has 
not addressed the problems, resulting in continued leaks and 
damage to the structure.
    At another school we visited, a high voltage electrical 
panel was installed next to the dishwasher, which posed a 
potential electrocution hazard. School facility staff told us 
that although the building inspector had approved this 
configuration before it opened, safety inspectors later noted 
that it was, in fact, a safety hazard.
    In 2014 we found that the Bureau of Indian Education does 
not adequately monitory school expenditures using RBM 
procedures or risk-based monitoring approach. As a result, the 
bureau failed to provide effective oversight of schools when 
they misspent millions of dollars in federal funds.
    We recommended that the agency develop RBM procedures and a 
risk-based approach to improve its monitoring. Indian Affairs 
again agreed, but it has not yet implemented these 
recommendations.
    In conclusion, our work shows that Indian Affairs continues 
to face challenges overseeing and supporting Indian education. 
Unless these issues are addressed, it will be difficult for 
Indian Affairs to ensure the long-term success of a generation 
of students.
    Thank you.
    [The statement of Ms. Emrey-Arras follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

    
    Chairman Rokita. I thank the gentlelady.
    I would like to recognize the chairman of the full 
committee, Mr. John Kline, for his questioning.
    Mr. Kline. Thank you, Mr. Chairman.
    And thanks, to the witnesses. A great panel.
    Sometimes I don't know whether to laugh or cry when I am 
hearing these stories. It is just absolutely incredible.
    Mr. Burcum, when we were up at the Bug-O-Nay-Ge-Shig school 
the other--oh, a couple of weeks ago now, I mean, it is clearly 
appalling. It is the northern part of Minnesota, spring time, 
and yet there is still snow on the ground and ice on the lakes, 
and it is cold and there are drafty openings, and it is just 
appalling.
    I know that--it is my understanding, at least, that you 
have talked to Secretary Jewell about the Bug school 
particularly. What do they say?
    Ms. Burcum. That is a very good question. Secretary Jewell 
has also visited the Bug-O-Nay-Ge-Shig school and I think, you 
know, her visit inspired hope that there is going to be a new 
school sometime soon.
    But when I had exchanges with Secretary Jewell and Dr. 
Roessel, there is no plan, as far as I can tell, to rebuild the 
school. And what they tell me is that, number one, they have 
many other schools in tough shape, as hard as that is to 
believe, and that, you know, their hands are just tied. There 
is no funding available, they are busy doing this bureaucratic 
reorganization.
    It just doesn't seem like there is, you know--there is a 
lot of defeatism, I think, within that agency. It is like it 
has been a problem for so long that maybe collectively, you 
know, even new leadership throws up its hands even after they 
have seen the conditions at these schools.
    Mr. Kline. Again, laugh or cry.
    Ms. Emrey-Arras, the GAO has done an enormous amount of 
work, and you personally have done an enormous amount of work. 
And I am looking--we have a paper copy of what you showed on 
the screen up there, and in discussing the situation over the 
last few weeks I have made the point that you have a 
bureaucratic mess. Just a bureaucratic mess.
    Who is in charge? We talked about the Secretary of 
Interior, but you have got the BIA, you have got the BIE, you 
have got the Department of Education, you have vacancies. You 
just have a mess.
    Why do you think, since we have known about this for a long 
time, to--and many of us more now aware of it, thanks to Ms. 
Burcum's work--why do you think it is so slow to be recognized 
and improved, and where is the particular--or most particular--
obstacle that keeps us from addressing this problem?
    Ms. Emrey-Arras. That is really tough to answer. We have 
had multiple recommendations that would really get at the heart 
of a lot of these issues: Have a plan. Know what you are doing. 
Have the right people with the right skills with the right 
training to do their jobs.
    And those recommendations have remained unaddressed. Or 
perhaps they will do something but it remains in draft form and 
it is never realized.
    So it continues to create issues--
    Mr. Kline. Is that because of the change in leadership, or 
what prevents this from coming to fruition here? Because 
clearly nobody--nobody can go visit one of these schools and 
not say, ``We need to fix this.''
    Ms. Emrey-Arras. Right.
    Mr. Kline. But it doesn't happen.
    Ms. Emrey-Arras. We have noted that the turnover in 
leadership has been an issue. I think also there is lack of 
communication with schools.
    When you showed that chart, I don't think most people could 
understand what was going on there. We had experiences with 
schools where they had real issues. They were out of hot water 
in elementary schools. They needed to get hot water for their 
kids and they didn't know who to contact, and it took sometimes 
a year to get those hot water heaters replaced.
    Mr. Kline. Well, looking at this chart and listening to 
your testimony, knowing the work you have done and the work all 
of you have done in this, it seems to me that we just can't let 
up.
    I mentioned to a number of people that Congress itself is 
not well organized to address this. We are having this hearing 
in Chairman Rokita's subcommittee where we have jurisdiction, 
if you will, over the U.S. Department of Education, who has 
about this much to do with this issue, and virtually zero to do 
with the building construction issue.
    So we are not well organized here either, but we can't 
let--we in Congress can't let that be an excuse, and I think we 
all owe it to these kids to get past the confusing charts and 
the way we are organized in Congress and say it is somebody 
else's. It is time now for it to be all of our responsibility, 
and we should never visit a high school built on a pole barn 
that was designed for--to work on cars and trucks, and you have 
got kids in there in the winter, in the cold, wearing their 
coats and mittens because it may be easily 30 below zero 
outside a little metal wall with gaps this big letting that 
cold air in where you have a blanket to stop it.
    My time is expired. I yield back.
    Chairman Rokita. Thank the gentleman.
    Ranking Member Scott is recognized for 5 minutes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. Roman Nose, can you--you mentioned some very successful 
programs. Could you describe those again and what the results 
of those programs were?
    Mr. Roman Nose. There are several successful TEAs. The one 
that I will be referring to is a result of four grants given to 
tribes, their TEAs, in which to work with states in a 
partnership to look at one of the federal title programs that 
are given to the local school district. So the TEA and the LEA 
and the SEA come together to look at how that program is 
implemented. So it is up to the tribe to pick what title 
program they are going to work with.
    Also, within the bureau they are just starting that process 
with Section 2020. And so I think things are looking up, but 
when you look at the minimal number of tribes who receive these 
grants--four for STEP, six for SIEA, and I am not sure how many 
are going to receive the new Section 2020 grant--but you look 
at 565 tribes, you know, the TEA, you know, needs are very, 
very much under-met.
    Mr. Scott. Well, when you implemented those programs where 
you implemented them, did they make a difference?
    Mr. Roman Nose. Yes, they did. I think the overall success 
in every one of them, regardless of what title program they 
looked at, is that there was more communication, more 
collaboration, more learning of what the other party does 
between the TEA, the SEA, and the LEA.
    Mr. Scott. Did you show academic improvement?
    Mr. Roman Nose. I think in some instances there were. There 
were more about the structure of how a program is developed, 
not test scores.
    Mr. Scott. Okay. Well, do you have evaluations of those 
programs that we could see?
    Mr. Roman Nose. I will contact them and make whatever 
evaluations are available to you.
    Mr. Scott. Thank you.
    Ms. Emrey-Arras, how long--do you know how long these 
programs--these problems have been known?
    Ms. Emrey-Arras. We have been reporting at GAO for decades 
on issues specifically regarding facilities.
    Mr. Scott. There are a number of specific issues that came 
up. One is the quality of the teachers. Did you find anything 
being done to recruit highly qualified teachers?
    Ms. Emrey-Arras. We have done some work in the past on 
teacher recruitment and teacher turnover issues. Back in 2001 
we reported that turnover rates at BIE schools were much higher 
for teachers than at public schools and that one of the 
struggles that schools faced in recruitment was just really the 
remote locations of the schools. One of the schools was telling 
us that it was over 90 miles to major shopping, which was a 
difficult thing to sell people on when you are trying to hire a 
teacher for a job.
    Mr. Scott. Was anything being done about that? I mean, you 
say the problem. Was there a solution?
    Ms. Emrey-Arras. Our work has not focused on best practices 
for that issue; we focused on documenting the concerns that the 
individuals had at that point.
    Mr. Scott. So you didn't find anybody working on the--you 
stated the--you identified the problem, but you don't see 
anybody working on it?
    Ms. Emrey-Arras. That was just one small piece of a larger 
study that we did back in 2001, sir.
    Mr. Scott. Well, okay. You also found excessive 
suspensions. We know that suspensions are highly correlated 
with future dropping out, crime, unemployment. What is being 
done to deal with excessive suspensions?
    Ms. Emrey-Arras. We have not done any recent work regarding 
that issue, but we would be happy to do so if you are 
interested in that.
    Mr. Scott. Okay. Did you try to ascertain, following up on 
the chairman's comment, did you ascertain whether the Bureau of 
Indian Education has the expertise to do education or whether 
or not some of this ought to be more appropriately placed in 
the Department of Education?
    Ms. Emrey-Arras. We have not looked at that straight on. We 
have looked at the issue of whether the individuals that are 
doing monitoring of school spending have the expertise, and the 
answer was ``not all the time.''
    We had people tell us that they were looking at single 
audits for tribes, and they were not accountants, they didn't 
know financial issues, and they didn't know what they were 
looking at, and they had no training. So we had concerns.
    Mr. Scott. Would that expertise be found in the Department 
of Education?
    Ms. Emrey-Arras. That is something that we have not 
explored, sir.
    Mr. Scott. I think you mentioned vacancies. Are vacancies 
not being filled because they are not being filled or because 
there is no funding to fill the vacancies?
    Ms. Emrey-Arras. We will be looking at that as we continue 
our ongoing work. Our facilities study is still in the works 
and we plan on issuing later this year, sir.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Rokita. Thank the gentleman.
    In order to accommodate members' schedules, I am going to 
reserve my questioning for later and now recognize Mr. Bishop, 
from Michigan, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you, to all of you, for being here today. Appreciate 
your testimony.
    I thought I might ask--there has been some discussion today 
and, Ms. Emrey-Arras, I wondered if I might direct this 
question at you: In a world of diminishing resources and 
funding, if there is anything that you could share with us, any 
ideas that you might have with regard to more efficient 
distribution of resources out of the Department of the Interior 
and the other funding sources.
    Ms. Emrey-Arras. Although our facilities work is still 
ongoing, we did report in our February testimony on one of the 
practices that we have observed so far that is very interesting 
in terms of resources, and that is in eastern Oklahoma there is 
a group of four tribal schools that have gone together to pool 
resources for facilities, and in doing so, they have been able 
to hire two architects and individuals to help them with their 
data entry for the facilities database. And we have heard that 
is a promising practice and we will continue to look at that as 
we go forward.
    Mr. Bishop. Thank you.
    President Cladoosby, I am fortunate, being from Michigan, 
I--we have a number of tribal reservations there and have had 
the opportunity to visit most of them, and have also had the 
opportunity to review and to see up close and personal their 
education environments. And it is extremely impressive.
    I don't think that the vast majority of folks who don't--
haven't seen that understand the role the tribe plays in the 
education of these youngsters and these young individuals, and 
I wondered if you might be able to more clearly give us some 
kind of description as to the role that the tribe plays in the 
education of young people, and also how that may have evolved 
over the years.
    Mr. Cladoosby. Sure. Thank you very much for that question.
    And once again, it always boils down to the bureaucracy 
that is placed on these schools and local control. You know, if 
tribes have the opportunity to develop the curriculum and 
implement it--and places that have been successful in Indian 
Country have done just that.
    There is a lot of historical knowledge that cannot be 
taught in public schools. A lot of things. I can give you a lot 
of examples of historical knowledge that will never be taught 
in a state-run school that can only be taught in a tribal 
school, just because of our history.
    And so I would say it boils down to just local control. You 
know, we have federal rules; we have state rules that these 
schools have to abide by. But if you just let the locals 
implement what they think is best for their schools, you will 
have success.
    Mr. Bishop. There is always some discussion, if I might 
follow up with that question, as to why these environments 
don't rely on the local public schools around. And you have 
just mentioned that you do some tribal education, including 
language, customs, history.
    Is there anything that you do that you can do as a tribe in 
that environment that the public schools around can't do?
    Mr. Cladoosby. Yes. Once again, it gets back to being able 
to teach the kids--you know, we suffer from a lot of historical 
trauma in Indian Country, and as many of you know, the boarding 
school experiences--that historical trauma was not a pretty 
picture and, you know, overcoming that historical trauma is so 
very important. And reacquiring that culture and reacquiring 
that language, reacquiring those teachings, those customs, 
those stories is very important.
    And we have been working--in Washington State right now 
they just passed a bill that makes it mandatory that every 
school has to teach tribal culture, and so, you know, those are 
steps in the right direction for states, looking at the 
importance of that. And so those are some of the things that, 
you know, the tribes are working with our local school 
districts to start implementing.
    Mr. Bishop. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Rokita. I thank the gentleman.
    I would like to notify committee members that we have had 
a--we have been joined by Congressman Rick Nolan, from northern 
Minnesota. He is off committee, but he is--has a district that 
includes the Bug-O-Nay-Ge-Shig school that Ms. Burcum 
originally reported on.
    Sir, welcome. You will be recognized in due time. Thank you 
for being with us today. Thanks for the hospitality you gave 
committee members in northern Minnesota.
    Ms. Fudge, you are recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    Ms. Emrey-Arras, you, in your testimony, outlined schools 
that have been forced to divert their building maintenance 
funds so that they can use them for facility operations, and 
you indicate that there was at least one school that you found 
that had--was only being funded at 50 percent of what it 
needed. Can you please tell me what the primary cause of 
underfunding in BIE schools is?
    Ms. Emrey-Arras. We have not looked at those underlying 
issues but do report, as you mentioned, that some are using 
money that is intended for keeping the lights on and keeping 
the buildings warm for maintenance, and then what happens is 
there is this domino effect where they pull the money to keep 
the lights on so they don't fix the rainspouts, maybe, and then 
the foundation has issues subsequently because there hasn't 
been regular maintenance. So there is a problem there.
    Ms. Fudge. Okay. So you are saying that you determined that 
there is a problem but you don't know why there is one.
    Ms. Emrey-Arras. This is an ongoing study that we are 
currently working on. The information that we testified on in 
late February is from this ongoing work, so we do not have 
recommendations yet from that study.
    Ms. Fudge. Thank you. But I would argue that some of it is 
just that the Congress doesn't give the funding to the 
Department of Interior it should.
    Number two, also to you: Do you believe that moving the 
responsibility of facilities and repair under BIE as opposed to 
BIA would help the process?
    Ms. Emrey-Arras. There have been different processes over 
time where they have done centralization and then 
decentralization, and gone back and forth. I think our primary 
interest is in making sure that whatever structure is present 
is one that is attuned to the customers, the schools, and as 
part of that they need to make sure that there is communication 
with schools, the schools--
    Ms. Fudge. Is that a yes or a no?
    Ms. Emrey-Arras. I am sorry?
    Ms. Fudge. Is that a yes or a no?
    Ms. Emrey-Arras. We do not have an official position on the 
structure.
    Ms. Fudge. Thank you.
    Mr. Roman Nose, according to a recent report from the 
Alliance for Excellent Education, there are over 1,200 high 
schools across the country that fail to graduate one-third or 
more of their students. These schools disproportionately serve 
low-income students and students of color. In four states--
Alaska, Montana, North Dakota, and South Dakota--more than 90 
percent of the kids in these schools are American Indian and 
Alaska Native students.
    How can federal policy help to turn these schools around so 
that these young people have an opportunity to succeed?
    Mr. Roman Nose. Thank you for asking that question. I think 
there are many ways of looking at this.
    One is the sole purpose of the STEP program was to get the 
three entities to work together, the federal title programs, 
the tribal education agency, and the state education agency. In 
those--some of those states that you mentioned, they have not 
progressed to the point that they recognize the value of tribal 
education agencies in their state. Therefore, some of the 
states did not choose to participate in the STEP program, which 
is optional.
    Also, the overlying factor of that is TEAs need to know 
where they are at. They need to have good data. And the FERPA 
issue has been there for many years, and it requires a 
technical amendment that we just insert tribe so that they can 
have access to that.
    And also, there is a lack of understanding that because we 
have bureau schools with school boards, many people think that, 
well, the SEA controls the local school boards to some extent. 
Well, that relationship between SEAs and the LEAs is not there 
for TEA; it is in their local school system.
    Sometimes there is a lack of communication, lack of 
capacity, and so forth.
    Ms. Fudge. Thank you very much.
    President Cladoosby--
    Mr. Cladoosby. It is a tough one. Cladoosby.
    Ms. Fudge. I got you. How does the Department of Interior 
generally, and BIE specifically, work with tribes to strengthen 
leadership and administrative capacity in order to support 
tribal control of schools?
    Mr. Cladoosby. You know, in my testimony I said that, you 
know, we have had a high turnover at leadership at BIE--33 
directors in 36 years. I mean, that is sad. That is a very sad 
statistic. And once again, you know, it boils down to funding 
and local control.
    And when you look at the two federal school systems that 
the Federal Government operates, they operate the DOD school 
systems and they operate the BIE school systems. And in 2014 
there was a $315 million request for school construction for 
DOD schools; there was only a $2 million request for BIE 
schools.
    And, you know, when--if we could show you a slideshow of 
what a DOD school looks like--a federally run DOD school and a 
federally run BIE school, and it would be a sad, sad, sad 
picture. And so once again, it gets down to, you know, 
Congress, as the trustees of these young Native American kids, 
needs to bring an awareness to this funding disparity.
    Ms. Fudge. Thank you.
    Chairman Rokita. Thank the gentlelady.
    Now I recognize Mr. Grothman for 5 minutes.
    Mr. Grothman. Thanks. I have a few questions. First one is 
for Ms. Emrey.
    Looking at the memorandum we have prepared here, there is a 
line that says in the November 2014 report, GAO found BIE-
operated schools spend 56 percent more per pupil than public 
schools nationally, and that is kind of a shocking number. I 
mean, I guess maybe it proves one more time that the amount of 
funding is overrated. But is that an accurate statement?
    Ms. Emrey-Arras. That is accurate. And it actually may be a 
lower bound estimate because the BIE schools also have 
administrative costs that aren't being included in that, in 
terms of the structure. So they are, in fact, funded at a 
higher level per pupil than the public schools on average.
    Mr. Grothman. Wow. Okay.
    If that is so, I will ask Mr.--get your name right--
    Mr. Cladoosby. Cladoosby. It is a tough one.
    Mr. Grothman. And that is a shocking number, so obviously 
we are putting enough money in this situation. Do you see or do 
you see a difference on, like, test scores and that sort of 
thing between BIA schools and locally administered schools?
    Mr. Cladoosby. I think the statistic of 53 percent 
graduation rate compared to 80 percent graduation rate tells a 
big story right there.
    Mr. Grothman. Okay. I will give you another question, 
because for whatever reason, we always get these breakdowns by 
ethnic group, which I always think is a--do you folks keep 
track of breakdown by--or of test scores by family structure? I 
mean, a lot of times--I don't have any Indian schools in my 
district, but a lot of time the teachers in my district feel 
one of the things that affects educational achievement is the 
family structure.
    And do you, when you keep track of your statistics either 
by a school or by individual, have statistics showing the 
degree to which maybe some of these problems may be affected by 
family structure?
    Mr. Cladoosby. Definitely. The parents are the key to the 
education of our students.
    And I mentioned historical trauma. That has occurred in our 
communities at very, very high levels, and with that historical 
trauma came a lot of poverty, drug and alcohol abuse, run-ins 
with the law, jails, prisons.
    And I can guarantee you 100 percent that if we invest in 
our kids that we will destroy this historical trauma, destroy 
poverty. We will create productive members of society who will 
pay taxes and be removed from the welfare rolls.
    I am a 100 percent believer in that and I am seeing that as 
I travel across the nation to Indian countries North, South, 
East, and West, where these tribes are investing a lot in 
destroying historical trauma.
    Mr. Grothman. Okay. I don't know the answer to this. I know 
in the United States as a whole we are kind of still going the 
wrong direction on family breakdown. Different people can argue 
why that is.
    But I wonder within the Indian community, are there changes 
in statistics on that--you know, kids raised in a, you know, an 
intact family are not safe today compared to 40 years ago or 80 
years ago? Do we know?
    Mr. Cladoosby. Yes. Yes. Once again, when I travel across 
Indian Country I am seeing those tribes that are in locations 
where economic development is making a--great strides, but I am 
still also seeing, like in the Pine Ridge Indian Reservation, 
where we have 80 percent unemployment, you know, 80 percent 
alcoholism rate, 80 percent dropout rate.
    So, you know, the location of the tribes plays a big part 
in it, also. But we do also have success stories at Pine Ridge.
    Mr. Grothman. Okay.
    Now we will give another question for Ms. Emrey-Arras.
    Can you outline some of the misuses of funding by BIE?
    Ms. Emrey-Arras. Sure. So external auditors identified 
millions of dollars that were inappropriately spent. In fact, 
they identified $13.8 million in unallowable spending at the 
time of our study.
    And one of the examples we found was that a school had lost 
$1.2 million in federal funds that were improperly transferred 
to an offshore account. Interior later said that they were the 
victims of a hacking incident, yet there were such weak 
controls that it remained questionable what, in fact, had 
happened.
    Mr. Grothman. Okay. I will give you a follow-up question, 
because you just heard what the past person said. Do you, and 
from what you see, a situation which the funds are more wisely 
used by locally administered schools rather than these schools 
administered out of Washington?
    Ms. Emrey-Arras. We have not done that analysis, sir.
    Mr. Grothman. Okay.
    Chairman Rokita. Gentleman's time is expired.
    Mr. Grothman. Okay. I am sorry. Thanks.
    Chairman Rokita. I thank the gentleman.
    Mr. Sablan, you are recognized for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And good morning, everyone.
    In preparing for today's hearing, I read the editorial 
series in the Star Tribune that Ms. Burcum--that highlighted 
the very poor condition of BIE schools in Minnesota. The titles 
of the series just struck me, ``Separate and Unequal.'' It is, 
of course, a reference to the milestone Supreme Court decision, 
Brown v. Board of Education, which found that separate by 
definition cannot be equal when it comes to how we educate our 
children.
    So separating one group of children from another leads to 
inequality, perpetuates inequality. The situation is of--the 
situation of neglected and inadequate BIE school facilities, 
which GAO reported was in Minnesota and elsewhere--Montana, 
North Dakota, New Mexico--proves that.
    We have school facilities in my district in Northern 
Mariana Islands and other U.S. ancillary areas--1,866--that are 
also substandard. The Office of Insular Affairs at Interior 
commissioned the Army Corps of Engineers a few years ago to 
rank these facilities by hazards posed to students, and since, 
federal funding for school repairs in the areas have been 
allocated based on Army Corps rankings. Of course, we could use 
more money to get the job done more quickly.
    I understand Chairman Kline and other members who represent 
Minnesota have requested more funding this year for BIE 
schools, and I hope they are successful. And I hope these funds 
are used in a systematic, prioritized way.
    I would like to point out another connection between BIE's 
schools and schools in my district, and that is the way that 
Title 1-A grants in Elementary and Secondary Education Acts are 
allocated. Funding for BIE students and students for what are 
called the outlying areas--the Northern Marianas, American 
Samoa, Guam, and the U.S. Virgin Islands--is separated out from 
all other Title A funding.
    BIE and the outlying schools receive 1 percent of the total 
Title I funds and then the secretary of education decides how 
to divide that money between BIE and the island schools. And 
that system has resulted in BIE students getting about twice as 
much as students in my district.
    We are having a hearing today about how bad all the BIE 
schools are, and they are when it comes to school buildings. 
But when it comes to federal funds to help run these schools, 
well, I have to speak up for students in my district who are 
getting the short end of the stick.
    The problem goes back to the headline in the Star Tribune: 
``Separate and Unequal.'' When we separate one group of 
students from another, inequality arises, and that is the case 
of Title I funding.
    Instead of treating BIE students and students in the 
outlying areas the same way we treat students in the states, 
instead of basing funding on the number of students served and 
on whether those students come from low-income households, the 
Elementary and Secondary Education Act has a set-aside, they 
call it, for my students. And set-aside is just another way of 
sending--saying ``separate.'' And separate, as the Supreme 
Court ruled, is not equal.
    The House has yet to act on reauthorization of the 
Elementary and Secondary Education Act, and I am well aware 
that there is nothing in the bill that Chairman Kline has 
reported that will end this separate but unequal Title I-A 
funding for Native American children in the BIE schools and for 
the indigenous and diverse student body in schools in my 
district. But until the House acts on the ESEA, we still have 
an opportunity to change this unequal practice, and I plead on 
Chairman Kline to please consider my proposal.
    And today's hearing is just one more opportunity to remind 
us all that until we do change Title I of ESEA, we will 
continue to have students who are separate, not equal.
    And at this time, Mr. Chairman, I would like to yield time 
to my colleague from northern Minnesota, Mr. Nolan, who is a 
strong champion for this issue in Congress.
    [The statement of Mr. Sablan follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Chairman Rokita. Nolan is recognized.
    Mr. Nolan. I want to thank Congressman Sablan.
    And I particularly want to thank Chairman Rokita and full 
committee Chairman Kline for their bipartisan, collaborative 
determination to get to the bottom of this situation and 
centuries of neglect of the children in Indian Country here.
    Congressman Fudge, I want to commend you and the other 
members of the committee.
    I want to also have the opportunity to welcome Jill Burcum 
for her brilliant reporting on this whole issue, and the Bug-O-
Nay-Ge-Shig school in particular.
    The conditions are truly appalling. As Chairman Kline said, 
they are horrific.
    It sends a message that we do not honor our obligations. It 
sends a message that children in Indian Country's education is 
not important. And in my judgment, it is a level of neglect 
that rises to the level of child abuse.
    And I want to thank everybody here for their efforts and 
their determination to get to the bottom of it and fix it once 
and for all.
    Last but not least, I come out of the sawmill and the 
pallet factory business, and we have quite a number of 
buildings--pole buildings, I might add--all of which are in 
better shape than the dilapidated, falling-down, dangerous, 
half-century-old building that the children are trying to be 
educated in the Bug-O-Nay-Ge-Shig school.
    Thank you, everyone.
    Chairman Rokita. I thank the gentleman.
    I will now recognize Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you for the panel and the excellent detail that 
you have provided us today.
    Mr. Roman Nose, it is nice to see you. And I would ask, as 
we examine the BIE school system today, my question for you, 
sir, would be, can you give us one or two recommendations that 
would help improve where the school system is today and how we 
could improve it?
    Mr. Roman Nose. That is a loaded question, but I certainly 
will try and answer that.
    For BIE schools, certainly the local tribes need to be 
given more resources to make them sufficient enough to all the 
things that an SEA has to do with their school district. And 
also, they need technical assistance to develop infrastructure 
like curriculum standards, and so forth.
    So the small amount of money we have been given is really 
not sufficient. It is just to build their--start to build their 
capacity. And, you know, once again, if you look to that very 
small percentage of how much money has been given, there is 
still great need.
    In that respect, some of the tribes who do have their own 
resources are going ahead and trying to resolve that issue.
    I think that the BIE, you know, needs to look at maybe 
different models, maybe even a pilot program or turn over those 
schools who what to go to Department of Defense and see how 
they operated within that infrastructure, maybe even turn a few 
over to Department of Education. But, you know, the question 
that tribes would have is the question of sovereignty, and so 
it is a big question, so--
    Mr. Russell. Well, thank you for that, sir.
    And, Ms. Burcum, as you have traveled the country touring 
schools and meeting students, what surprised you the most?
    Ms. Burcum. I think as we got to know the students my 
observation is that there is a lot of untapped potential here. 
You know, the statistics are very grim when you look at 
graduation rates, for example, or reading and math scores.
    But the thing to remember about these students is that they 
are not--they go through so much before they even walk in the 
door of that school. I got to know Seneca Keezer while I was up 
at the Bug-O-Nay-Ge-Shig school, and she lost her mother at age 
12; she has two younger sisters; she has a dad who not only has 
diabetes but is in a wheelchair.
    She gets up, you know, her students--or her sisters, she 
cooks them breakfast, she makes sure that they have all their 
homework and gets on the bus before she goes to school. And she 
also takes care of her dad.
    When she comes home she cooks dinner for everybody, 
supervises homework, and then takes care of her dad, helps him 
with everything, and then she gets to do her own homework, and 
then she gets to go to bed. She does this day after day.
    I felt, as a, you know, a 46-year-old mother, that I was 
talking to a peer, not, you know, a young girl who was a senior 
in high school.
    And a lot of students have similar stories. I mean, we have 
mentioned the family issues that are, you know, I think, you 
know, a true concern and, you know, potentially, you know, a 
hurdle to learning.
    But there is a lot of that on these reservations. These 
kids go through so much before they go to the classroom.
    And what the cultural education does at these schools is it 
provides that sense of family that isn't--that maybe not--that 
isn't there at home. You have dedicated teachers; you have 
elders who are coming into these schools. At the Bug-O-Nay-Ge-
Shig school, for example, there are parking spots reserved for 
elders.
    They are getting something at these schools that they are 
not going to get at public schools, and sometimes they are not 
getting at home. These kids are to be admired, and it is 
something to take into perspective when you look at some of the 
educational statistics.
    Mr. Russell. Well, thank you for that.
    Mr. Cladoosby, in your opinion, what steps are needed to 
ensure the BIE system effectively serves students?
    Mr. Cladoosby. Well, I think we definitely need to look at 
the long term and look at the plans going forward that we have 
to understand that there is no quick fix, there is no one-size-
fits-all; acknowledge tribal sovereignty in a real way and 
acknowledge that the communities have the opportunity to teach 
things that the other schools can't; acknowledge historical 
trauma, that, you know, a lot of people probably up there don't 
really understand historical trauma from a tribal perspective, 
and it is real, and we are still living it. And I am a firm 
believer that education will destroy historical trauma.
    And continue to work on building capacity within these 
schools. And, you know, Congress can start right away by, you 
know, allocating $1.3 billion to create brand new schools in 
this program. $1.3 billion. Let's just do it.
    Chairman Rokita. Gentleman's time is expired.
    Mr. Russell. Thank you, Mr. Chairman.
    Chairman Rokita. Thank the gentleman.
    Mr. Thompson, you are recognized for 5 minutes.
    Mr. Thompson. I want to thank the chairman and ranking 
member for putting this hearing together.
    Thanks for all of you folks for coming here, sharing your 
expertise, your commitment to this really important issue.
    I want to start out and follow up, Ms. Burcum, thank you 
for, you know, providing some transparency on this issue. You 
know, obviously, reading your testimony, your articles that you 
wrote wasn't--you know, part reporter, part mom. You know, you 
brought that passion to it, and that is appreciated when we are 
talking about education.
    In your testimony you describe the concerning physical 
conditions of the Bureau of Indian Education high schools. 
Given your interactions with school administrators, parents, 
students of these schools--excuse me--can you elaborate on how 
these under-equipped facilities contribute to the many 
challenges facing American Indian education?
    Ms. Burcum. I am glad to do that. That is an excellent 
question.
    I think the most shocking classroom that I went into was at 
the Bug-O-Nay-Ge-Shig High School, and we are all acquainted 
with the need for kids to have science and math fundamental 
skills to compete in the workforce. And at the Bug-O-Nay-Ge-
Shig school the science classroom used to be part of an 
automotive shop. There are no microscopes. They don't have the 
safety equipment to do chemistry experiments or many biology 
experiments. The periodic table is out of date.
    And I think, ``How are these kids--how are we equipping 
these kids to compete, to pull their communities up and be good 
citizens and parents for the next decades when we don't have 
the facilities and the classrooms to give them the education 
that they need?''
    You know, science and math are challenging. You need to 
have a hands-on learning experience.
    And I think it is especially helpful for American Indian 
students. You have to have that, and we don't have that. So 
that is a way that it is holding back students at that school.
    When I was out in the Pine Ridge--on the Pine Ridge 
Reservation, I talked to the elementary school principal, and 
she came up to me later after we had talked and she said, ``If 
I could make one point to you it is this: If you want to raise 
reading scores, you need to have a library for these 
children.''
    They are so far out. They are 90 miles away from Rapid 
City. I don't believe that there is a library on the 
reservation, or at least in the communities that I visited.
    So if you want them to read, which is how you get ahead, 
that is how you become a better reader--you want them to raise 
their reading scores, they need to have books. They don't even 
have a library at their elementary school.
    So those are some key ways that learning is being held back 
by the decrepit facilities that we have.
    Mr. Thompson. Thank you.
    Ms. Emrey-Arras, given your expertise, how do you think the 
past two restructuring efforts and the Bureau of Indian Affairs 
further complicated communications from a school's perspective, 
and how can this be improved?
    Ms. Emrey-Arras. I think, quite simply, people do not know 
who to contact when they have problems, and that continues. 
When we talk to schools, they are asking us who they should 
contact at Interior because it is not clear to them.
    I mean, some really basic things are missing, like an up-
to-date phone directory. The directory that they have is from 
2011.
    And we have pointed this out to them, and on Friday they 
said, ``Oh, we have updated our directory. It is all in 
draft,'' you know. But then we looked on the Web site and it is 
still the old one from 2011 up there. So if you are trying to 
contact someone, you don't know how to reach them.
    Mr. Thompson. Thank you.
    This question I will throw out in general: Can any of you 
discuss the academic preparation and academic needs of students 
being served by the BIE school system, and what do you think 
are the benefits of the schools that you have observed?
    Ms. Burcum. I will respond to that question first.
    First of all, you have a very dedicated staff of teachers 
who are at these schools. The pay is lower than they could have 
gotten elsewhere; they are often on very remote reservations. 
They are there because they have a real passion and a 
connection with these kids.
    And I think also--they made a point over and over again 
that I didn't quite understand, which is that the culture--
learning the culture enriches the educational experience for 
these kids and makes them better citizens. And I didn't quite 
understand until the end of my long reporting quest.
    And imbued in their language and culture are values. And I 
said, ``Okay, I still don't understand.''
    And finally I was given this example: The Ojibwe word for 
older woman is ``she who holds it all together.'' The Ojibwe 
word for older man is ``keeper of the earth.'' There are values 
that are just implicit in this culture that are transmitted and 
reiterated and reinforced when we add that to the curriculum.
    And when you have cultural aspects of the day woven into 
it, you also keep kids coming back. These are kids that have 
not succeeded at public schools, often. They bounce around a 
lot. It is surprising once you actually start looking at the 
system.
    And they come to this school because they feel comfortable, 
because they have dedicated staff who are family to them, and 
they feel at one with their culture. And this gets at the 
historical trauma that my colleague has been talking about.
    They have activities that connect them to their family and 
their communities, such as wild rice harvesting, such as 
learning how to make maple syrup. All of these things keep them 
coming back.
    Chairman Rokita. Gentleman's time is expired. I thank the 
gentleman.
    Recognize myself for 5 minutes. And one of the problems 
with going last is that all the questions have been asked and--
of course, not all, but a lot of ones that I had in mind.
    But it also allows me to take it all in and listen more, 
and one of the things I want to explore is why--and I will ask 
Ms. Emrey-Arras first--is it possible, or why can't the BIA or 
the BIE be operated more like a school district? I mean, it 
is--it has geographical challenges, obviously, but what if it 
was just organized and run like a decent or well-run school 
district in the United States? Would we get better results?
    Ms. Emrey-Arras. We think it should be run in a responsible 
and efficient way, where you have people who are trained for 
the positions that they are tasked with that know what to do 
and have, you know, communications with their colleagues. I 
mean, just some of the basics seem to be missing here.
    Chairman Rokita. Is there any evidence that they have 
actually looked at--whether it is the DOD, as Mr. Cladoosby 
indicated--looked at the DOD to model, or just any other school 
district? Is there any evidence that they are trying to do 
anything like that in their restructuring plans or anything?
    Ms. Emrey-Arras. I am not aware of that. Others may be more 
familiar with that.
    Chairman Rokita. Mr. Cladoosby?
    Mr. Cladoosby. Yes. I think that would be something that we 
could work together at looking at, you know, what is working at 
the DOD schools versus the BIE schools and what is not working, 
and why.
    Chairman Rokita. But what if it was run like a school 
district?
    Mr. Cladoosby. Once again--like a state-run school district 
where--
    Chairman Rokita. In a rural district or--
    Mr. Cladoosby. --where the tribe collects taxes and it is 
paid for that way, or--
    Chairman Rokita. No, just in terms of its organization, 
where if the water heater was broken you can call somebody and 
it gets done, you know, closer than a year--gets fixed.
    Mr. Cladoosby. Yes. That is a great question. I mean--go 
ahead, Mr. Roman Nose. I will let you jump in.
    Chairman Rokita. Mr. Roman Nose?
    Mr. Roman Nose. Certainly the changing of the directors, 
you know, 32 or whatever it was--
    Mr. Cladoosby. Thirty-three in 36 years.
    Mr. Roman Nose. Thirty-three in 36 years--you know, 
leadership, if you look at all the SEAs, their superintendent 
or director of education department is there for many years. 
Some of them are there to provide some leadership, plus they 
have adequate staff--trained staff--to do that. And then when 
you come down to the tribal education department, many, many of 
them lack the resources to actually become a TEA that would be 
fully functioning.
    And then you look at the curriculum. You have got to 
understand that TEAs--we don't just look at the education of 
the Native student just inside the four rooms of the classroom. 
We don't just look at the four test scores.
    Someone was asking a question about, you know, comparing 
the family structure to the success of the students. I think 
the recent initiative of Obama where they are putting the 
generation indigenous together, where they are going to get 
silos of programs to work together to, you know, try to be more 
productive in providing these services and letting them work 
together, you know, how the success of that student.
    You know, education of our students just doesn't happen 
inside the classroom. It happens outside the classroom just as 
well. So I think--
    Chairman Rokita. Thank you. And I am one that doesn't 
believe that the school building makes the school; it is what 
happens inside it.
    And we have Taj Mahals, in terms of school buildings around 
the United States that I have seen, and they are poor schools. 
On the other hand, as Ms. Burcum and we all identified here, 
when the school building becomes a distraction to learning, as 
clearly Bug-O-Nay-Ge-Shig and others are, you know, that is the 
problem.
    Ms. Burcum, did you--you mentioned briefly a contrast 
between DOD and how this is run. Would you like to elaborate? 
Or have you studied in your reporting--to my earlier question--
school districts in a regular suburban or rural setting, and 
are there any lessons to be learned or any applications that 
can be made?
    Ms. Burcum. Well, to your school district question, I--it 
is an interesting proposition. I would like to think about that 
a little bit more.
    But I would say that I think there are some opportunities 
for more local innovation. For example, I will tell you, 
Minnesota is very interested in the well-being of the students 
in BIE schools. We provide additional funding, and there is an 
effort being led in the state right now to look at public-
private partnerships to accelerate the building process for BIE 
schools like the Bug-O-Nay-Ge-Shig school.
    So I think that there are lots of opportunities for local 
innovation; I just don't think that you have a BIE system 
that--it doesn't encourage it, and I think that there are a lot 
of people who feel like they are going to be punished, you 
know, they are going to be put down lower on the priority 
construction list if they try something new. And that is wrong.
    Chairman Rokita. All right.
    Ms. Emrey, can you react to that last point? Do you have 
any evidence to show that--
    Ms. Emrey-Arras. I think people are concerned about the 
list. And in terms of the work that we have done regarding 
that, we have serious concerns about the quality of the data on 
that, so it just--there is a real struggle to know how the 
agency is going to use that list going forward in terms of 
prioritizing funding when there are serious data quality issues 
with that list to begin with. So I think that is something to 
pay attention to going forwards.
    Chairman Rokita. Thank you.
    I violated my own red light policy, which is why I needed 
to say that earlier.
    Mr. Takano, you are recognized for 5 minutes. I am not 
last, as a matter of fact.
    Mr. Takano. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    In my district I have the Sherman Indian Institute, which 
is a residential school, and I wonder if anyone on the panel 
could speak to the governance of these residential schools. And 
I find them--I find out that the regular meeting--the way the 
governance works is the tribes that send--it is on a pro rata 
basis. The tribes that send students to the schools are 
involved in governance, but I am finding that the boards don't 
always have full participation as far as the meetings.
    Can you tell me about just the meeting requirements? And do 
people have to come physically to these meetings? Can they do 
them, you know, by teleconferencing?
    Because I think part of the accountability problem is this 
governance structure, and I have many students that come from a 
different state that are, in my district in Riverside, many 
from Arizona and neighboring states. And I find the way the--
for parents to kind of hold that school accountable is 
difficult.
    So can you explain a bit about the governance structure and 
how we might improve that, and is that a--do you see that as a 
problem, in terms of the effectiveness of these schools?
    Ms. Emrey-Arras. I would defer to my colleagues on this 
one.
    Mr. Roman Nose. When you said Riverside is that--
    Mr. Takano. Sherman Indian Institute.
    Mr. Roman Nose. Sherman. They are in a category called off-
reservation boarding schools, and I am also chairman at the 
Riverside Indian School, which is in Anadarko, Oklahoma.
    Mr. Takano. Okay.
    Mr. Roman Nose. So what you are speaking of, if any tribe--
federally recognized tribe of the United States--can send their 
students to those particular schools. And they are kind of 
unique because most of the other boarding schools are more the 
local, regional, tribal level, whereas the ORB schools can get 
students from all over the United States.
    Mr. Takano. How many of these residential schools currently 
exist in our nation? Do you know that?
    Mr. Roman Nose. ORB schools I know there are four. I am not 
sure how many there are in the BIE system that are residential 
that are controlled by either the BIA or grant or contract 
school. I don't have that--
    Mr. Takano. Okay. But--
    Mr. Cladoosby. There are 184 BIE schools, and 14 are 
peripheral dormitories located on 63 reservations--
    Mr. Takano. So there are about 14 of them across the--
    Mr. Cladoosby. Fourteen, yes.
    Mr. Takano. And the governance structure for these 14 
schools, you know, is based on which tribes send their students 
to these schools, is that correct?
    Do you know just how these meetings are conducted, the 
rules for them? How are parents able--how are parents and the 
tribes able to hold these schools accountable for how effective 
they are?
    Mr. Cladoosby. Are you referring to the 14 dormitory--
    Mr. Takano. Yes, the 14 dormitory schools, which I assume 
Sherman Indian Institute is one of them.
    Mr. Cladoosby. Right, right. Once again, it depends on the 
location of the parent in regards--relationship to the school. 
And, you know, we have had students go from Washington to 
Oklahoma, and the parents probably did not have a very big say 
on, you know, the local control, local issues. It just depends 
on location.
    Mr. Takano. Well, this is kind of more complicated because 
it is not about local control, it is about a school that, say, 
many of the Navajo nations send their young people to. It is 
many miles away, and a school board that doesn't--I mean, it is 
a strange governance system.
    I am perplexed as to how to turn these schools into centers 
of excellence. And part of the problem is I am trying to 
understand the governance structure, how regular are the 
meetings, how involved are the tribes in these meetings.
    Mr. Cladoosby. Yes. That would have to be a follow up to 
get back to you on that to give you a better understanding.
    Mr. Takano. Yes. It would be helpful if we could get--I 
would encourage the staff of this committee or some--somehow to 
get a report on all this, because I see a lot of federal 
resources being put into the facilities that are residential, 
and I am not completely satisfied with the effectiveness.
    Mr. Cladoosby. Right. With all due respect, I don't see a 
lot of money going into facilities in the BIE schools, as we 
have acknowledged here today.
    Mr. Roman Nose. The students at those residential schools, 
certainly for the ORB schools, they mainly come there primarily 
because the economic condition of their family. Their families 
can't support them, and so that is why they choose to go to one 
of these ORB schools.
    Mr. Takano. Well, I think it is incumbent upon us to make 
sure that they are truly gateways to opportunity.
    Mr. Chairman, I don't--my time is--I can't see a clock, but 
I think I have asked my questions.
    Chairman Rokita. Yes. There is a red light there.
    Mr. Takano. Oh, there. I am--
    Chairman Rokita. No, I missed it too, Mr. Takano. I thank 
the gentleman. Gentleman's time is expired.
    I will now recognize Ms. Fudge for her closing remarks.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all for your testimony today.
    Certainly I hope that the Committee on Natural Resources, 
which has jurisdiction over the Department of Interior, will 
take up this issue. All we can do at this point is just make 
recommendations to the bureau, and I certainly do hope that we 
will be doing that, Mr. Chairman.
    As well, I just want to hopefully impress upon them, as we 
have talked about today, the importance of a culturally 
relevant curriculum as well as safe schools, and treating all 
Americans the way that our children should be treated.
    And I thank you very much.
    Chairman Rokita. Thank the gentlelady.
    On behalf of the members who participated today, and also 
the members who couldn't make it, thank you, each one of you, 
for your testimony today, but more importantly, your 
leadership. You are truly needed to help us solve this issue, 
and I hope you stick with us.
    Small jurisdiction as it is over this issue or not, we 
intend to be involved. We commit ourselves to trying to solve 
this problem with fellow members of Congress.
    And I think all this comes down to leadership--leadership 
on your behalf, those that you represent; leadership on our 
behalf; leadership from the President and the administration of 
the executive branch. You know, that is also going to be key 
here.
    And so with that, seeing no more business before this 
committee, let me once again thank the witnesses for coming 
today.
    This committee meeting is adjourned.
    
    
    [Additional submission by Ms. Emrey-Arras follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    [Additional submission by Ms. Fudge follows:]
    
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Additional submission by Mr. Roman Nose follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
